                                        NATIONAL SCIENCE FOUNDATION
                                         OFFICE OF INSPECTOR GENERAL
                                           OFFICE OF INVESTIGATIONS

                               CLOSEOUT MEMORANDUM

TO: AIGI      File Number: I93080029                                        Date: 11 March 2002

Subject: Closeout Memo                                                                Page 1 of 1


     There was no closeout written at the time this case was closed. The following information was
     extracted from the file in conformance with standard closeout documents.

     Our office was informed that the subject' was alleged to have stolen $19,775.O1 in Federal funds
     from NSF. The subject was imprisoned and the grant was credited for the funds.

     Accordingly this case is closed.




               Prepared by:                      Cleared by:
              Agent:          Attorney:        Supervisor:     AIGI
  Name:
